Below are the terms you requested for a Pinnacle Bank MasterCard credit card product.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

13.24% to 19.24% when you open your account, based on your
creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

13.24% to 19.24% when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

21.00%

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

Either $10 or 3% of the amount of each transfer, which ever is greater.
Either $10 or 4% of the amount of each cash advance, which ever is greater.
1.5% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
• Returned Payment
• Over­the­credit limit

Up to $35
Up to $35
None

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

Important Information About Procedures for Opening a New Account. To help the government fight the funding of terrorism and money
laundering activities, Federal law requires all financial institutions to obtain, verify, and record information that identifies each person
who opens an account. What this means for you: When you open an account, we will ask for your name, address, date of birth, and
other information that will allow us to identify you. We may also ask to see your driver's license or other identifying documents.
Terms and Conditions:The words "you" and "your" mean each person (as an individual) and all persons (as a group) applying as a Primary
Applicant or Co­Applicant. You are applying for a credit card account provided by Pinnacle Bank, Nashville, TN ("we," "us," and "our"). By
applying, you certify and agree that:
• You are at least 18 years old (or at least 19, if a Nebraska or Alabama resident);;
• You received, read, and agree to all terms and conditions provided with this application;
• All information and documents provided with your application is true, correct, and complete and we may rely on it;
• You are asking us to issue credit cards for account access to you and each Authorized User that any of you designate;
• You agree to be responsible, individually and together, for account use by any of you and any Authorized User;
• You will read the Consumer Cardmember Agreement and its Account Opening Disclosures carefully before you use or allow
anyone else to use any credit card account;
• We are allowed to verify your employment, income, address, and all other information about you with financial institutions,
credit reporting agencies, employers, government agencies, and other third parties;
• We are authorized to use and disclose information about you, this application and any account we provide for our everyday
business purposes, to the extent permitted by applicable law and as described in our Privacy Policy, including information we
share with our service providers and other financial institutions to maintain and provide your credit card account;
• The obligations incurred with this credit card account are being incurred in the interest of your marriage or family, if you are
married and living in a community property state; and
You agree that we may obtain consumer credit reports about you to review this application, and, if we open a credit card account for you,
that we may obtain consumer credit reports about you in the future to review, update, renew, collect, and service your credit card
account and for other purposes permitted by law. We will, if you request, tell you whether we obtained a consumer credit report about
you and tell you the name and address of any consumer reporting agency that provided the report.
If we open a credit card account for you, you understand and agree that you will be subject to all terms and conditions described in our
Consumer Cardmember Agreement, as amended from time to time, including but not limited to its terms related to account payments,
rates and fees, change in terms, and arbitration. This Consumer Cardmember Agreement becomes effective the first time you or any
Authorized User activates a Card or uses the Account in any way. You understand and agree that we may change the Consumer
Cardmember Agreement and the rates, fees, and terms of your credit card account as allowed by law, after we give any notice and wait
any time period that the law requires.

Consent for Communications: By applying and providing your telephone number(s) and email address(es), you expressly authorize us and
our agents and service providers to use any available written, electronic, or verbal means of contacting you for any purpose related to the
servicing and collection of your accounts with us, for surveys and research, and for any other informational purpose related to your
accounts with us (each, a "Communication"). You agree this authorization for Communications includes, but is not limited to, our use of
manual calling methods, prerecorded or artificial voice messages, text messages, e­mail messages, and/or automatic telephone dialing
systems. You agree that we and our agents and service providers may contact you for these Communications using any e­mail address or
telephone number you provide, including a number for a cellular telephone or other wireless device, regardless of any charges you may
incur as a result. We will not charge you for making a Communication, but your service provider may. You agree that we and our agents
and service providers may monitor and record telephone calls about your credit card account to assure service quality or for other
legitimate business reasons. You understand and agree that we and our agents and service providers may always communicate with you
in any manner permitted by law that does not require your prior consent.
Notice of Negative Information Furnishing: We may report information about your account to credit bureaus. Late payments, missed
payments, or other defaults on your account may be reflected in your credit report.
Notice to California Residents: An applicant, if married, may apply for a separate account. After credit approval, the Primary Applicant
and any Co­Applicant shall each have the right to use the account to the extent of any established credit limit and each may be liable for
all credit extended under the account.
Notice to Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy
customers and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
Notice to New York Residents: You may contact the New York State Department of Financial Services by telephone or visit its website for
free information on comparative credit card rates, fees and grace periods.
NY State Dept of Financial Services: 1­800­342­3736 http://www.dfs.ny.gov/consumer/creditdebt.htm.

Notice to Married Wisconsin Residents: Wisconsin law provides that no agreement, unilateral statement or court decree relative to
marital property shall adversely affect a creditor's interest, unless prior to the time credit is granted the creditor is furnished a copy of the
agreement, statement or decree, or has actual knowledge of the adverse provision. If any or both of you are married Wisconsin residents,
each of you agree to provide us with your spouse's name and address at the following address within five (5) days of your application, so
we can provide your spouse(s) with any notice required by Wisconsin law: Apex Cardmember Services, P.O. Box 332509, Murfreesboro,
TN 37133.

01/2016

